No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES
ET AL., APPELLANTS
v.
CITY OF SAN JOSE, ET AL.
_______________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES
ET AL., APPELLANTS
v.
STATE OF CALIFORNIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JURISDICTIONAL STATEMENT, via email and first-class mail, postage prepaid, this
29th day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2836 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on October 29, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 29, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.
CITY OF SAN JOSE, ET AL
Sadik Harry Juseny
Amit Makker
Cindy Guan
Sahannon Danielle Lankenau
Steven Mark Bauer
Latham & Watkins LLP
505 Montgomery Street
Suite 2000
San Francisco, CA 94111
415-391-0600
Sadik.huseny@lw.com
Amit.makker@lw.com
Cindy.guan@lw.com
Shannon.lankenau@lw.com
Steve.bauer@lw.com
Ajay P. Saini
Ezra D Rosenberg
Kristen Clarke
Maryum Jordan
Lawyers’ Committee for Civil Rights Under Law
1500 K Street, NW
Suite 900
Washington, DC 20005
202-662-8304
asaini@lawyerscommittee.org
erosenberg@lawyerscommittee.org
kclarke@lawyerscommittee.org
mjordan@lawyerscommittee.org
Dorian Lawrence Spence
Jon Greenbaum
Lawyers Committee for Civil Rights Under Law
1401 New York Avenue NW,
Suite 400
Washington, DC 20005
202-662-8324
dspence@lawyerscommittee.org
jgreenbaum@lawyerscommittee.org

Ricard P. Bress
Latham and Watkins LLP
555 Eleventh Street, N.W.
Suite 1000
Washington, DC 20004-1304
202-637-2200
Rick.bress@lw.com
Blaine I. Green
Pillsbury Winthrop LLP
Post Office box 2824
San Francisco, CA 94126
415-983-1476
Blaine.green@pillsburylaw.com
Dustin James Chase-Woods
Pillsbury Winthrop Shaw Pittman LLP
Four embarcadero Center,
22nd Floor
San Francisco, CA 94111
415-983-1213
Dustin chasewoods@pillsburylaw.com
Jennifer G. Altman
Shani Rivaux
Pillsbury Winthrop Shaw Pittman LLP
600 Brickell Avenue
Suite 3100
Miami, FL 33131
786-913-4900
Jennifer.altman@pillsburylaw.com
Shani.rivaux@pillsburylaw.com
Michael John Pisko
Pillsbury Winthrop Shaw Pittman LLP
31 West 52nd Street
New York, NY 10019
Elizabeth B. Wydra
Constitutional Accountability Center
1200 18th Street, NW
Suite 501
Washington, DC 200036
202-296-6889
elizabeth@theusconstitution.org

Mark R. Trachtenberg
Haynes and Boone LLP
1221 McKinney Street
Suite 4000
Houston, TX 77010
713-547-2528
Mark.Trachtenberg@haynesboone.com
Tamara Irene Devitt
Haynes and Boone, LLP
600 Qnton Boulevard,
Suite 700
Costa Mesa, CA 92626
949-202-3000
Tamara.Devitt@haynesboone.com
Lawrence John Joseph
Law Office of Lawrence J. Joseph
1250 Connecticut Avenue, NW
Suite 700 1A
Washington, DC 20036
202-355-9452
ljoseph@larryjoseph.com

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.
STATE OF CALIFORNIA, ET AL.
Valerie Louise Flores
Kathleen Alice Kenealy
Michael Joseph Dundas
City Attorney’s Office for the City of Los Angeles
200 north main Street
7th Floor, MS 140
Los Angeles, CA 90012
213-978-8149
Valerie.flores@lacity.org
Kathleen.kenealy@lacity.org
Mike.dundas@lacity.org
Monica J. Kilaita
Long Beach city Attorney’s Office
411 W. Ocean Blvd.
9th Floor
Long Beach, CA 90802
562-570-2215
Monica.kilaita@longbeach.gov
Maria Bee
Oakland City Attorney’s Office
One Frank H. Ogawa Plaza,
6th Fl.
Oakland, CA 94612-1999
510-238-3814
mbee@oaklandcityattorney.org
Sue Ann Salmon Evans
Keith Alexander Yeomans
Dannis Woliver Kelly
115 Pine Avenue
Suite 500
Long Beach, CA 90803
562-366-8500
sevans@DWKesq.com

David Ilan Holtzman
Holland & Knight LLP
50 California Street,
28th Floor
San Francisco, CA 9411
415-743-6900
David.holtzman@hklaw.com
Blaine I. Green
Pillsbury Winthrop LLP
Post Office Box 2824
San Francisco, CA 94126
415-983-1476
Blaine.green@pillsburylaw.com
Dustin James Chase-Woods
Pillsbury Winthrop Shaw Pittman LLP
Four Embarcadero Center,
22nd Floor
San Francisco, CA 9411
415-983-1213
dustin.chasewsoods@pillsburylaw.com
Jennifer G. Altman
Shani Rivaux
Pillsbury Winthrop Shaw Pittman LLP
600 Brickell Avenue
Suite 3100
Miami, FL 3313
786-913-4900
Jennifer.altman@pillsburylaws.com
Shani.rivaux@pillsburylaw.com
Michael John Pisko
Pillsbury Winthrop Shaw Pittman LLP
31 West 52nd Street
New York, NY 10019
212-858-1207
Michael.pisko@pillsburylaw.com

Douglas N. Letter
U.S. House of Representatives
Office of General Counsel
219 Cannon House4 Office Building
Washington, DC 20515
202-225-9700
Douglas.letter@mail.house.gov
Elizabeth B. Wydra
Constitutional accountability Center
1200 18th Street, NW
Suite 501
Washington, DC 20036
202-296-6889
elizabeth@theusconstitution.org
Richard W. Clary
Cravath Swaine and Moore, LLP
825 8th Ave.
Worldwide Plaza
New York, NY 10019
212-474-1000
rclary@cravath.com
Mark R. Trachtenberg
Haynes and Boone LLP
1221 McKinney Street
Suite 4000
Houston, TX 77010
713-547-2528
Mark.Trachtenberg@haynesboone.com
Tamara Irene Devitt
Haynes and Boone, LLP
600 Anton Boulevard,
Suite 700
Costa Mesa, CA 92626
Tamara.Devitt@haynesboone.com

